     Management Advisory Report




Single Audit of the State of Iowa for
the Fiscal Year Ended June 30, 2011




       A-77-13-00006 | March 2013
Single Audit of the State of Iowa for the Fiscal Year Ended
June 30, 2011
A-77-13-00006
March 2013                                                                 Office of Audit Report Summary

Objective                                   Findings

To report internal control weaknesses,      The single audit reported that in anticipation of a potential
noncompliance issues, and                   Government shutdown, the DVRS drew down approximately
unallowable costs identified in the         $1,230,000 in excess of current needs for the DDS.
single audit to Social Security
Administration (SSA) for resolution         Recommendations
action.
                                            We recommend that SSA remind DVRS that it is not authorized to
Background                                  draw Federal funds in excess of the DDS’ current needs.

The Iowa State Auditor conducted the
single audit of the State of Iowa. SSA
is responsible for resolving single audit
findings related to its Disability
Insurance program. The Department
of Education, Division of Vocational
Rehabilitation Services (DVRS) is the
Iowa Disability Determination
Services’ (DDS) parent agency.
MEMORANDUM
Date:      March 13, 2013                                                             Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Iowa for the Fiscal Year Ended June 30, 2011 (A-77-13-00006)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Iowa for the Fiscal Year ended June 30, 2011. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Iowa State Auditor conducted the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work conducted by the Iowa State Auditor and the HHS reviews. We
           conducted our review in accordance with the Council of the Inspectors General on Integrity and
           Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Iowa Disability Determination Services (DDS) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Department of Education, Division of Vocational
           Rehabilitation Services (DVRS) is the Iowa DDS’ parent agency.




           1
            State of Iowa, Single Audit Report http://auditor.iowa.gov/specials/1260-8990-A000.pdf (last viewed
           February 20, 2013) and State of Iowa, Independent Auditor’s Report on Internal Control Over Financial Reporting
           and on Compliance and Other Matters Based on an Audit of Financial Statements Performed in Accordance with
           Government Auditing Standard, June 30, 2011. http://publications.iowa.gov/12091/1/1260-8990-B001.pdf (last
           viewed February 28, 2013).
Page 2 - Gary S. Hatcher

The single audit reported that in anticipation of a potential Government shutdown, the DVRS
drew down approximately $1,230,000 in excess of current needs for the DDS. The corrective
action plan indicated DVRS has procedures in place to minimize the amount of time between
drawdown and disbursement of Federal funds. The excess drawdown was an isolated situation,
which required management to plan for business continuity. 2

We recommend that SSA remind DVRS that it is not authorized to draw Federal funds in excess
of the DDS’ current needs.

The single audit also disclosed the following findings that may impact DDS operations although
they were not specifically identified to SSA. I am bringing these matters to your attention as
they represent potentially serious service delivery and financial control problems for the Agency.
Specifically, the Department of Education:

1. Has 34 employees who have the ability to initiate and approve timesheets. 3

2. Does not have an independent review process of the payroll information input into the
   payroll system for employees who work on multiple Federal programs. 4

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                          Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    State of Iowa, Single Audit Report, at finding 11-III-SSA-283-1.
3
 State of Iowa, Independent Auditor’s Report on Internal Control Over Financial Reporting and on Compliance
and Other Matters Based on an Audit of Financial Statements Performed in Accordance with Government Auditing
Standard, June 30, 2011, at finding (D)(1)(a).
4
    Id. at finding (D)(1)(b).
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
